CERTIFICATE OF SERVICE
NO. 20-132
The Moodsters Company
Petitioner(s)
v.
The Walt Disney Company, et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
CALIFORNIA SOCIETY OF ENTERTAINMENT LAWYERS AMICUS AT PETITION STAGE IN SUPPORT OF
PETITIONER, by mailing three (3) true and correct copies of the same by USPS Priority mail, postage
prepaid for delivery to the following addresses:
Patrick Malin Arenz
Robins Kaplan LLP
800 LaSalle Avenue
2800 LaSalle Plaza
Minneapolis, MN 55402
(612) 349-8500
PArenz@RobinsKaplan.com
Counsel for The Moodsters Company

Erin Joan Cox
Munger, Tolles & Olson LLP
350 S. Grand Avenue, 50th Floor
Los Angeles, CA 90071
(213) 683-9575
erin.cox@mto.com
Counsel for The Walt Disney Company, et al.

Lucas DeDeus

September 8, 2020
SCP Tracking: Lowe-8383 Wilshire Blvd.-Cover Cream

